<html>
<title> - CYANOTOXINS IN DRINKING WATER</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                     CYANOTOXINS IN DRINKING WATER

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 19, 2014

                               __________

                           Serial No. 113-181



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-990                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
PHIL GINGREY, Georgia                PAUL TONKO, New York
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               GENE GREEN, Texas
JOSEPH R. PITTS, Pennsylvania        DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
ROBERT E. LATTA, Ohio                JERRY McNERNEY, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              JANICE D. SCHAKOWSKY, Illinois
DAVID B. McKINLEY, West Virginia     JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               HENRY A. WAXMAN, California, ex 
JOE BARTON, Texas                        officio
FRED UPTON, Michigan, ex officio













  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     2
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    78
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    79

                               Witnesses

Peter Grevatt, Director, Office of Ground Water and Drinking 
  Water, U.S. Environmental Protection Agency....................     5
    Prepared statement...........................................     8
Craig W. Butler, Director, Ohio Environmental Protection Agency..    24
    Prepared statement...........................................    27
John Donahue, General Manager, North Park (Il) Public Water 
  District, On Behalf of American Water Works Association........    38
    Prepared statement...........................................    40
Lynn Thorp, National Campaigns Director, Clean Water Action......    61
    Prepared statement...........................................    63

                           Submitted Material

Prepared statement of Hon. Marcy Kaptur, a Representative in 
  Congress from the State of Ohio................................    80
Letter of November 18, 2014, from the Ohio Farm Burea to Mr. 
  Shimkus, submitted by Mr. Latta................................    83
Statements submitted by Mr. Shimkus..............................    85

 
                     CYANOTOXINS IN DRINKING WATER

                              ----------                              


                      WEDNESDAY, NOVEMBER 19, 2014

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:18 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Latta, Harper, 
McKinley, Bilirakis, Johnson, Tonko, and Barrow.
    Staff present: Nick Abraham, Legislative Clerk; Leighton 
Brown, Press Assistant; Jerry Couri, Senior Environmental 
Policy Advisor; David McCarthy, Chief Counsel, Environment/
Economy; Tina Richards, Counsel, Environment; Chris Sarley, 
Policy Coordinator, Environment & Economy; Jacqueline Cohen, 
Democratic Senior Counsel; and Ryan Schmit, Democratic EPA 
Detailee.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. I call the subcommittee to order, and the 
chair will recognize himself for 5 minutes for an opening 
statement.
    Today's subcommittee will be taking a look at the harmful 
algal blooms in drinking water, including the source water used 
for drinking. I thank Representative Latta for his efforts on 
this issue, for bringing it to the subcommittee's attention. He 
has delved into the minutiae of this issue in search of a 
useful and long term solution to this problem. Having sat in 
some of the meetings with Mr. Latta that he has been having on 
this issue, I realize what a complex and widespread issue this 
is, but one which only gained national attention a few months 
ago.
    Some folks may be tempted to think that there are easy 
solutions to this problem, but I caution jumping to simple or 
sweeping conclusions. There is no single smoking gun that leads 
to algae based toxins in drinking water. I believe we will hear 
our witnesses say that there are still plenty of things that we 
don't know about this subject.
    I understand from drinking water treatment professionals 
that many types of cyanobacteria and diversity of the habitat 
make it complicated to predict the precise conditions favoring 
their growth. Physical factors that affect whether 
cyanobacteria grow include available light, weather conditions, 
water flow, temperatures, and mixing within the water column. 
Acidity and nutrient concentrations, including those from 
municipal wastewater, urban lawn and golf course management, 
and agricultural processes all contribute to algal bloom 
growth. In addition, we will hear testimony that experiencing a 
blue-green algae bloom does not always mean there is a 
cyanotoxin problem.
    We need to know more about this issue. We understand that 
there are--at least 35 states have reported blue-green algal 
blooms, but we need to separate out the drinking water concerns 
from those seen in the recreational waters context. This 
hearing is meant to focus on the Safe Drinking Water Act, not 
lawns in other subcommittees or committees, whether that be a 
regulation of nitrogen disposition under the Clean Air Act or 
nutrient management under the Clean Water Act.
    There are plenty of questions within the context of 
ensuring the provision of safe drinking water that we should 
focus on and learn about today. Our hearing will allow us to 
focus on where we are with our understanding of the U.S. EPA's 
effort on better grasping blue-green algal--algae in the 
drinking water context, including health effects and current 
data, monitoring and testing techniques, and public health 
communication strategies. We will also hear from witnesses on 
what happened this past August in Ohio, and what lessons we 
learned. Finally, we will get a better sense of what drinking 
water treatment professionals are doing to better prepare to 
handle these events.
    I want to thank the witnesses for being here today, and 
yield the rest of my time to Mr. Latta.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Today, the subcommittee will be taking a look at the 
harmful algal blooms in drinking water, including the source 
water used for drinking. I thank Representative Latta for his 
efforts on this issue and for bringing it to the subcommittee's 
attention. He has delved into the minutia of this issue in 
search of useful and longterm solutions to this problem.
    Having sat in some of the meetings Mr. Latta has been 
having on this issue, I realize what a complex and widespread 
issue this is, but one which only gained national attention a 
few months ago.
    Some folks may be tempted to think there are easy solutions 
to this problem, but I caution jumping to simple or sweeping 
conclusions. There is no single ``smoking gun'' that leads to 
algae-based toxins in drinking water, I believe we will hear 
our witnesses say there are still plenty of things we don't 
know about this subject.
    I understand from drinking water treatment professionals 
that the many types of cyanobacteria and diversity of their 
habitats make it complicated to predict the precise conditions 
favoring their growth. Physical factors that affect whether 
cyanobacteria grow include available light, weather conditions, 
water flow, temperature, and mixing within the water column. 
Acidity and nutrient concentrations--including those from 
municipal waste water, urban lawn and golf course management, 
and agricultural processes--all contribute to algal bloom 
growth.
    In addition, we'll hear testimony that experiencing a blue-
green algae bloom does not always mean there is a problem.
    We need to know more about this issue. We understand that 
at least 35 states have reported blue-green algae blooms, but 
we need to separate out the drinking water concerns from those 
in the recreational waters context. This hearing is meant to 
focus on the Safe Drinking Water Act, not laws in other 
subcommittees or committees whether that be regulation of 
nitrogen deposition under the Clean Air Act or nutrient 
management under the Clean Water Act.
    There are plenty of questions within the context of 
ensuring the provision of safe drinking water that we should 
focus on and learn about today.
    Our hearing will allow us to focus on where we are with our 
understanding of U.S. EPA's efforts on better grasping blue-
green algae in the drinking water context, including health 
effects and occurrence data, monitoring and testing techniques, 
and public health communications strategies. We will also hear 
from witnesses on what happened this past August in Ohio, and 
what lessons were learned. Finally, we will get a better sense 
of what drinking water treatment professionals are doing to 
better prepare to handle these events.

    Mr. Latta. Well, thank you, Mr. Chairman, and thank you 
very much for holding this very important hearing today. I 
really appreciate it and your interest in the subject, because 
it affects so many millions of Americans,
    First, I would like to recognize one of our witnesses today 
from my home state, Ohio EPA Director Craig Butler. Mr. Butler 
has been director of the Ohio EPA since early 2014, and 
previously served in the governor's administration as the 
assistant policy director for energy, agriculture, and the 
environment. I have had the pleasure of working with Director 
Butler on issues of great importance to Ohio. I am grateful 
that he is able to be here today to share his expertise and 
insights with the subcommittee.
    The United States is truly fortunate to have a vast amount 
of surface water. It provides immense value to our nation's 
ecosystem and economy, as well as drinking water to countless 
Americans. To me, nowhere is this more evident than the Great 
Lakes, the largest surface freshwater system on Earth, that 
provides drinking water to tens of millions of people.
    Unfortunately, cyanotoxins in public drinking produced from 
harmful algal blooms are presenting a serious concern for our 
health. This past August, half a million people in the Toledo 
area, many of which are residents of my district, were unable 
to utilize their public drinking water for over 2 days without 
risking potentially negative health effects due to the high 
level of cyanotoxins, microsystems--detected in the city's 
public water supply. During that time, both concerns and 
questions were raised about testing protocols, treatment 
process, appropriate responses on how to respond to the problem 
in the short term.
    I know from my personal experience that the State, 
including Director Butler, and the U.S. EPA worked tirelessly 
with the local water utility to get the situation under 
control. I commend their hard work, and the steps they have 
taken since to try to ensure this does not happen again.
    However, I believe to fully protect our citizens' public 
drinking water from cyanotoxins, it is imperative that Federal, 
State, and local governments work together to better understand 
the science and human effects of cyanobacteria and cyanotoxins, 
as well as the best utilization of available testing, 
monitoring, and treatment technology.
    I am confident, by working together, we can accomplish 
this. I look forward to today's hearing, and hearing from our 
witnesses on what types of strategies, actions U.S. EPA would 
take to close these gaps and improve human health and 
environmental protection. And with that, Mr. Chairman, I would 
yield back my time, and also I would ask that I have a letter 
from the Ohio Farm Bureau that I would like to have inserted 
into the record.
    Mr. Shimkus. Without objection, so ordered in.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And with that, I turn to Ranking Member Paul 
Tonko for 5 minutes for an opening statement.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chairman, and good morning to 
each and everyone. Thank you again, Mr. Chair, for scheduling a 
hearing on what I believe is a very important topic. Water is 
an essential resource. It has no substitute. Although 70 
percent of the planet's surface is covered with water, only a 
small fraction of that is of sufficient quality to serve our 
needs.
    Much of the Eastern half of the United States is blessed 
with ample freshwater resources, and no region is more well-
endowed than the areas bordering the Great Lakes. The Great 
Lakes contain 21 percent of the Earth's surface freshwater 
supply, and 84 percent of the United States' surface freshwater 
supply. We share these resources with Canada, and they are 
vitally important to the well being and economic fortunes of 
over 30 million people living within the eight states of our 
nation, and province of Ontario. The importance of this 
resource cannot be understated. We must protect it.
    I am reminded by my colleague, Representative Kaptur about 
the importance of water quality, and the impact on her area 
with this issue. The algal bloom that resulted in Toledo's 
residents losing the use of their tap water is not a new 
problem. In part because Lake Erie is the shallowest lake, with 
the warmest waters, algal blooms have been a well-known problem 
for decades. Investments made in better sewage treatment and 
control of point sources in the 1960s and 1970s improved the 
situation for a time. But the steady input of nutrients from 
agricultural operations, especially from the Miami Watershed, 
expanded populations of invasive species, and changes in 
weather patterns have continued to fuel harmful algal blooms.
    We cannot do much about the weather patterns, but we can do 
much better in managing nutrient inputs and invasive species. 
Mr. Donahue points out in his testimony that the cost of these 
blooms, and for treating water to remove the resulting toxins, 
is falling on the water utilities and their customers. That is 
true, but the cost of these algal bloom events are even larger 
than that, and they are also falling on other individuals and 
businesses that rely on a clean, bloom free Lake Erie to 
support tourism, to support recreation, to support fisheries, 
and other activities.
    The International Joint Commission released a report this 
past February with 16 recommendations for action by the 
governments of the states and province within the Great Lakes 
Basin. The report identifies phosphorus loading as a key driver 
for the increased intensity and frequency of harmful algal 
blooms in Lake Erie. Seven of the recommendations specifically 
target phosphorus nutrient loading from agricultural lands. 
This is the largest unchecked input of nutrients to the lake.
    Farmers do not wake up every morning with a plan to cause 
algal blooms in Lake Erie, or any of the other water bodies 
that are experiencing this problem, but it is happening as a 
result of farming practices, and the problem needs to be 
addressed. Agriculture is important to this region, and to our 
nation, and agriculture also relies on a good supply of water. 
The goal here is to strike an appropriate balance that keeps 
farms economically viable and productive, but reduces the 
transport of soil and nutrients off the land. There is no 
denying that agriculture practices result in nutrient runoff at 
levels that cannot continue if we are to get these blooms under 
control.
    The good news is that our land grant universities, the 
Natural Resource Conservation Service, and others have 
developed best management practices that can be adopted to 
achieve some of the needed reduction. And EPA has been working 
with states of the Chesapeake Bay Watershed to implement basin-
wide nutrient management plans to address similar problems that 
we have noted in the Chesapeake Bay. Nutrients that are coming 
off of fields are not benefitting anyone. Better nutrient 
management will not only benefit water quality, it will benefit 
farming also.
    Until we get these blooms under control, we are going to 
need better information for water utilities and the public 
about the toxicity of these blooms. But to truly ensure the 
safety of drinking water supplies, we will need to take serious 
steps to correct the source of the problem. These blooms not 
only jeopardize public drinking water supplies, they result in 
dead zones due to lack of oxygen when the blooming organisms 
die, and sink to the bottoms of lakes and estuaries.
    Ultimately, it is less expensive to prevent pollution than 
it is to clean it up. This problem is not unique to Lake Erie. 
It is happening in other places as well. We are all dependent 
upon clean water supplies, and we all must work together to 
better manage these vital resources. Maintaining safe drinking 
water available to every household through the tap is one of 
the conveniences that define a modern society. We cannot 
compromise on that guarantee.
    We have an excellent panel of witnesses before us today. I 
look forward to hear your testimony, and I thank you for 
participating in this very important hearing. And, Mr. Chair, I 
hope we will be able to spend time over the next 2 years 
finding a way to address the backlog of drinking water 
infrastructure needs that we have in communities across this 
great country. I would welcome an opportunity to work with you 
and other members of the committee on this important issue in 
the next Congress. And with that I yield back, and thank you 
again.
    Mr. Shimkus. Gentleman yields back his time. Any other 
member seeking time for an opening statement? Seeing none, we 
would like to welcome Dr. Peter Grevatt. He is the Director of 
Office and Groundwater and Drinking Water at the United States 
Environmental Protection Agency. Welcome, sir. You have 5 
minutes. We are not going to be draconian on time, and then we 
will go to questions. So, welcome.

  STATEMENT OF DR. PETER GREVATT, DIRECTOR, OFFICE OF GROUND 
 WATER AND DRINKING WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Grevatt. Yes, sir, thank you. Good morning, Chairman 
Shimkus, Ranking Member Tonko, and members of the subcommittee. 
Thank you for the opportunity to testify on EPA's activities to 
address harmful algal blooms and their impact on drinking water 
supplies. Today I will discuss the health effects of 
cyanobacteria and cyanotoxins, the incident in Toledo this 
summer, authorities under the Safe Drinking Water Act, and 
strategies for preventing harmful algal blooms.
    Cyanobacteria are found naturally in surface waters, and 
can rapidly multiply, causing harmful blooms. Factors that 
enhance bloom formation include light intensity, nutrient 
availability, water temperature, and water column stability. 
Some species of cyanobacteria produce toxic compounds known as 
cyanotoxins. High levels of cyanotoxins in recreational waters, 
and drinking water, may cause a wide range of adverse health 
effects in humans, including fever, diarrhea, vomiting, and 
allergic reactions.
    While the risk associated with low levels of cyanotoxins in 
drinking water is uncertain, the effects reported following 
exposure suggest that this is an important issue for us to 
address. Communities on Western Lake Erie, including Toledo, 
remain vulnerable to emergency shutdowns from harmful algal 
blooms.
    On the morning of August 2, Toledo Mayor Collins issued a 
don't drink or boil advisory to the nearly 500,000 customers in 
response to the presence of microcystin in the city's drinking 
water, leading to the declaration of a state of emergency by 
the governor, and mobilization of the Ohio National Guard to 
provide emergency drinking water supplies.
    The presence of the toxin was due to a harmful algal bloom 
near Toledo's intake on Lake Erie. The U.S. EPA performed 
sample analyses to confirm the concentrations of algal toxins, 
and worked with the State of Ohio and the City of Toledo to 
identify the optimal approach for controlling the toxins at the 
utility. When treatment adjustments led to the reduction on 
cyanotoxin concentrations, Mayor Collins lifted the advisory on 
Monday, August 4.
    Currently there are no U.S. Federal regulations concerning 
cyanotoxins in drinking water. The Safe Drinking Water Act 
establishes a number of tools, including health advisories, the 
contaminant candidate list, and the Unregulated Contaminant 
Monitoring Rule to develop regulatory and non-regulatory 
approaches to addressing contaminants in drinking water. EPA is 
preparing health advisories for microcystin and 
cylindrospermopsin, two cyanotoxins commonly associated with 
harmful algal blooms.
    The health advisories will establish concentrations of 
drinking water contaminants below which adverse health effects 
are not anticipated to occur, as well as provide states, and 
municipalities, and other local officials with technical 
guidance on sampling, analytical procedures, and drinking water 
treatment recommendations to protect public health. We expect 
to finalize these health advisories in 2015.
    EPA's contaminant candidate list identifies unregulated 
contaminants that are known or anticipated to occur in public 
water systems which may require regulation. The EPA uses this 
list to prioritize research and data collection efforts. My 
office has listed several cyanobacteria and cyanotoxins on the 
three contaminant lists that have been developed.
    EPA uses the unregulated contaminant monitoring rule to 
collect data for contaminants that do not have primary drinking 
water standards, and are suspected to be present in drinking 
water. A lack of standardized analytical methods for individual 
cyanotoxins has prevented EPA from including them in the 
current and previous rounds of the unregulated contaminant 
monitoring rule. The agency is currently developing specific 
analytical methods for microcystins, anatoxin-a, and 
cylindrospermopsin. EPA expects these methods to be available 
in 2015 in time to consider including several cyanotoxins in 
the fourth unregulated contaminant monitoring rule. Monitoring 
for the fourth round of UCMR will begin in 2018.
    While monitoring and treatment are critical for providing 
safe drinking water, this year's incident in Toledo illustrates 
the difficulties of removing those contaminants at the 
treatment plant. Shortly after the Toledo incident, EPA 
redirected $12 million in Great Lakes Restoration Initiative 
funding to Federal and State agencies to strengthen ongoing 
efforts to target harmful algal blooms in Western Lake Erie. 
Continued source water protection efforts, and adequate 
investment in our nation's infrastructure, will be necessary to 
prevent events such as the one in Toledo in the future.
    Once again, Chairman Shimkus, Ranking Member Tonko, and 
members of the subcommittee, thank you for the opportunity to 
discuss EPA's work on cyanotoxins in drinking water, and I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Grevatt follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Shimkus. Thank you very much. First of all, I want to 
personally thank you for flying back, especially for today for 
the hearing in a town called New Orleans, so--New Orleans, 
D.C., 15 degrees versus whatever it was down there. We 
appreciate it.
    Then I will recognize myself for 5 minutes for the first 
round of questions. Could you please--I kind of said some of 
this stuff in my opening statement, and you kind of reaffirmed 
this, just, for the record, how many cyanotoxins there are.
    Mr. Grevatt. So there are many dozens of cyanotoxins. There 
are over 40 cyanobacteria that can produce cyanotoxins, and 
there are in the range of 80 forms of microcystins alone, so 
there are many dozens of different cyanotoxins.
    Mr. Shimkus. And that was my next question. So there are 
over 80 microcystins?
    Mr. Grevatt. Yes, sir.
    Mr. Shimkus. Are all cyanobacteria harmful?
    Mr. Grevatt. So cyanobacteria are capable--certainly some 
are capable of producing the toxins. It is the toxins that are 
released from the bacteria that are harmful. And we don't fully 
appreciate the specific conditions that lead cyanobacteria to 
generate these toxins, so they aren't necessarily always 
harmful in every condition, but certainly they are capable of 
producing very harmful compounds.
    Mr. Shimkus. Do you know which cyanobacteria are harmful in 
a drinking water context?
    Mr. Grevatt. So the ones that we have been most concerned 
about are microcystis, and then the cyanobacteria that also 
produce the anatoxin, the cylindrospermopsin, and the 
saxitoxin. The ones that we are focused on currently at EPA are 
the microcystin generated cyanobacteria, as well as 
cylindrospermopsins and the anatoxins.
    Mr. Shimkus. Is there a threshold level of exposure of 
microcystin LR in drinking water at which the EPA has seen 
adverse human impacts?
    Mr. Grevatt. So there is no threshold level yet that has 
been identified in humans. There has never been any testing in 
humans to identify what a threshold level might be. There 
certainly is the history with microcystins of--for example, in 
Brazil in the '90s, there was a kidney dialysis center that 
microcystins in their system that led to 50 deaths as a result 
of that treatment. So we know that microcystins can, in certain 
circumstances, produce high toxicity in humans. We don't know 
specifically what a threshold level would be.
    Part of what our health advisory effort is designed to do 
is to help identify a level below which we think exposure would 
be safe.
    Mr. Shimkus. And that Brazil case, was that over time, or 
was it, like, identified, and then those deaths occurred 
rapidly? Was that over time?
    Mr. Grevatt. So I would have to get back to you on the 
specifics of that case. All that I know is that that clearly 
was defined as microcystin leading to 50 deaths. And that was, 
of course, intravenous exposure, and at much higher levels than 
what we might see----
    Mr. Shimkus. Right.
    Mr. Grevatt [continuing]. In drinking water, but it tells 
us, at least, this is a dangerous compound for humans.
    Mr. Shimkus. Right. Thank you. Many people have been using 
the terms like health advisory and standard interchangeably, 
but I am not sure that they are. So are these terms defined in 
the Safe Drinking Water Act?
    Mr. Grevatt. Yes, these terms are defined in the Safe 
Drinking Water Act. The health advisories were introduced in 
the 1996 amendments to the Act. These are non-regulatory 
levels, right, and they are really guidance values to help 
states and communities to guide their steps they might take in 
response to the presence of contaminants in drinking water. A 
standard, of course, is a regulatory value that drinking water 
systems must meet.
    Mr. Shimkus. Thank you. When EPA issues a health advisory, 
what types of information does it address, and what level of 
detail?
    Mr. Grevatt. Right. So there are several pieces of the 
health advisory that will--pieces of information that will be 
included. The first is discussing the environmental properties 
of the compound the health advisory is focused on. The second 
is identifying sampling and analytical techniques that are 
available for that compound. The third is identifying the safe 
level for that compound. Then the last, very important piece is 
identifying treatment technologies that are available to remove 
that compound from drinking water systems.
    Mr. Shimkus. Yes, and that is what my follow-up was--my 
follow-up was do you recommend testing methods in these? And 
you did talk about treatment a little bit.
    Mr. Grevatt. Right. So we are currently in the process of 
developing a new analytical method for microcystin, and 
cylindrospermopsin, and anatoxin. And so these methods will 
help us to be able to define specifically much lower levels of 
these toxins in drinking water. You are probably aware that 
many systems in states across the country currently use a 
screening level method known as the Elisa Method. That is 
certainly what was used in Toledo, and by the State of Ohio. It 
is a very useful method. The one we are developing is going to 
be very specific for individual microsystem----
    Mr. Shimkus. Thank you very much. I yield back the 
remainder of my time, and turn to Ranking Member Mr. Tonko for 
5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. Doctor, we have heard 
today about actions that can be taken to address harmful algal 
blooms in the short and long term. Some may believe that the 
solution to this drinking water problem is a standard for 
microcystin, the toxin released by these organisms. But that 
would require water utilities to treat the symptom of harmful 
algal blooms, instead of addressing the underlying root causes. 
One tool for addressing these causes that cannot be overlooked 
is the regulation of nutrient pollution.
    Excessive amounts of nitrogen and phosphorous in water 
sources from agricultural storm water and waste water runoff 
fuel rapid algal growth. Algae's rapid reproduction outpaces 
that of other organisms, overtaking entire ecosystems. When 
they die, sink to the bottom, and decompose, an oxygen-free 
dead zone, as you know, is the result.
    So, Dr. Grevatt, how are elevated nutrient levels in water 
sources like Lake Erie contributing to harmful algal blooms and 
toxic contamination of our water sources?
    Mr. Grevatt. Thank you. So we understand clearly that there 
are several factors that contribute to the growth of harmful 
algal blooms, certainly one of those is nutrients, and we 
believe that a solution to this problem requires attention both 
on source water protection, as well as infrastructure in the 
drinking water treatment facilities, that without both of those 
steps it would be very difficult to manage this problem.
    Mr. Tonko. And what authority does your office have under 
the Safe Drinking Water Act and the Clean Water Act to prevent 
non-point source nutrient pollution from entering our drinking 
water sources?
    Mr. Grevatt. Right. So, under the Safe Drinking Water Act, 
which my office is solely responsible for implementing, there 
is a requirement for states to produce source water 
assessments, which was completed. This was in the 1996 
amendments. Every state has completed this task. There are no 
further requirements for source water protection, but certainly 
we encourage states and local communities to work together to 
address the sources of pollution that can create these sorts of 
problems in drinking water supplies.
    Clean Water Act is not an authority that my office 
implements, but certainly there are a number of provisions 
focusing on issues like non-point source pollution. We have the 
319 grants, and a number of other activities that we have been 
advancing, along with partners at the Federal level to address 
sources pollution.
    Mr. Tonko. And, in your view, is it important to address 
nutrient pollution in addition to addressing the cyanotoxins in 
drinking water?
    Mr. Grevatt. Without question. I think it would be very 
difficult. If we don't do that, what will happen is that we are 
putting all the burden on the drinking water systems to remove 
the toxins from the source water, and we saw in the case of 
Toledo that that can be a difficult thing to achieve. And so we 
believe it is important to address both the sources that are 
contributing to the growth of the algal blooms, as well as 
making sure that the treatment systems are up to the very tip-
top shape so they can remove these pollutants from the drinking 
water.
    Mr. Tonko. And the treatment systems are available, or do 
they need to be further developed?
    Mr. Grevatt. So the treatment systems are--treatment 
techniques are available to remove algal toxins and 
cyanobacteria from drinking water supplies, but it is not 
necessarily a simple and straightforward task. And so that is 
part of the reason why we think we really have to address both 
issues----
    Mr. Tonko. Yes.
    Mr. Grevatt [continuing]. Currently.
    Mr. Tonko. And is drinking water contamination the only 
problem associated with these blooms?
    Mr. Grevatt. So there are a number of issues. I think not 
many of you are familiar with concerns associated with 
recreational use of water, children and families at bathing 
beaches, if there are harmful algal blooms, can be exposed, 
and, in some cases, sickened by those blooms. Certainly we see 
issues with livestock and pets who have been poisoned as a 
result of harmful algal blooms. And as well, as you mentioned, 
the blooms can contribute to hypoxic situations in lakes and 
reservoirs, and that can create a whole other set of issues 
that are separate from the drinking water concerns.
    Mr. Tonko. Another important tool is to ensure adequate 
protections for seasonal streams, wetlands, and other water 
with significant connections to downstream waters. The 
regulatory statute of these waters--the regulatory of these 
waters under the Clean Water Act is often misunderstood. EPA 
and the United States Army Corps of Engineers recently proposed 
to clarify the definition of waters of the United States under 
the Clean Water Act to eliminate confusion, and ensure that 
these waters are protected.
    The recent report that I cited earlier included a 
recommendation to restore wetland areas, and increase them by 
10 percent, and the Western Lake Erie Basin is one of the ways 
to address algal blooms in the lake. What is the function of 
these small streams, wetlands, and other water bodies, and why 
are they important to our ecosystem?
    Mr. Grevatt. Right. Thank you. So, I want to be clear, 
again, that my office doesn't implement the Clean Water Act, 
but certainly it is the case that it is very difficult to 
protect a body of water like Lake Erie without addressing the 
pollutants that are flowing into the water from other streams 
and rivers, and so I think it is a very important issue to 
think about comprehensively.
    Mr. Tonko. Thank you. With that, I yield back, Mr. Chair.
    Mr. Shimkus. Gentleman yields back his time. Chair now 
recognizes the gentleman from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman, I 
really appreciate it. And Director, thank you again for being 
here. And, again, as the Chairman said, thanks very much for 
coming back from New Orleans to be with us today at the 
subcommittee hearing, because it is very important to our 
region of the state, but also what is going to come out of your 
office in the near future is important to everyone.
    And as we look at how obviously important it is that we 
understand the extent of the problem that we have, and I know I 
really appreciated the opportunity to sit down with you earlier 
this fall to go through what had happened, and also some of the 
issues that you are facing on peer review in getting that 
information together, what do you believe today are the largest 
gaps that we have in the health effects on the cyanotoxins are, 
and those gaps?
    Mr. Grevatt. Right, thank you. So there are a number of 
different cyanotoxins, as I mentioned. There are some that we 
understand much better than others. Perhaps the best studied is 
the microcystin cyanotoxin that was the issue within the City 
of Toledo drinking water system. And that is one of the health 
advisories that we will be developing, along with 
cylindrospermopsin.
    Probably the largest data gaps we have, in terms of 
toxicity, is the effects at very low levels of exposure. So 
there are a number of studies that have been generated in 
animals that look at issues like liver toxicity, and 
reproductive toxicity associated with microcystin exposure, but 
those studies aren't perfect. We had been, as I mentioned, 
generating a health advisory for microcystin, and we have 
subjected that draft health advisory to two rounds of 
independent external peer review, and we are using the feedback 
from the peer reviewers to make sure that we are taking the 
best approaches to incorporate the information from these 
studies, and the health advisory. And we will have that health 
advisory available in the spring of next year.
    Mr. Latta. When you are talking about the--on a peer 
review, and maybe--as we talked earlier. Could you go into just 
a little bit about--it is kind of difficult because of the 
technical nature of this, and the expertise that is required, 
and the folks that you have to find to be able to conduct this 
peer review?
    Mr. Grevatt. That is right. So what we will typically do at 
EPA--when I say independent external, what I mean by that is we 
will hire a contractor to identify scientists who are not 
connected with the agency to review our work and give us 
feedback independent of us. We don't choose the scientists who 
review our work. They give us the feedback, and then we look at 
how we interpret and incorporate their advice on how we 
finalize these health advisories.
    But we are looking at studies, typically in animals, and we 
have to try and understand what those studies tell us about the 
potential risks for humans. And that is part of the reason why 
it is so important to have the peer review, to have the advice 
about how best to do that.
    Mr. Latta. OK. And as we know, that Ohio, and some of the 
other states, if I am not mistaken from our conversation, only 
about six other states are out there that are using surface 
water, or have some type of a standard in place, and we are 
using the World Health Organization standard. And when you are 
looking at your health advisory that you are working on for 
next year releasing, when was it that you all first decided at 
EPA that you needed to really have that standard in place?
    Mr. Grevatt. We decided that we needed to put a health 
advisory in place well before the Toledo incident, so we have 
been working on this throughout the last year, and even before. 
And we are working closely with Health Canada and a number of 
states in this effort to make sure that we are using the best 
available data in the best way.
    Mr. Latta. And when you are talking about that is--in the 
last year, when you started looking at that, was there a reason 
that you hadn't started working on it sooner, or is it 
something that has just been coming up? Or what was the 
reasoning behind that?
    Mr. Grevatt. Right. It is an excellent question, and there 
are two issues that have been challenging related to 
cyanotoxins. One has been the absence of analytical methods 
that are specific for individual cyanotoxins. And you remember 
I mentioned there are over 80 conjurers of microcystin that 
have different levels of toxicity. And the second is that the 
data set on toxicity has not been all that robust.
    There have been some additional studies that have been 
generated, and, in fact, the World Health Organization value, 
which about 12 countries around the world use today, and a 
number of states use, that is based on a 1999 study, and it is 
a 2003 guidance value that was generated, and so we felt it was 
important to update that science. I think we have heard from 
you, and many of your colleagues, about how important it is to 
have a Federal health advisory in place, rather than relying on 
something from the World Health Organization.
    Mr. Latta. And in my remaining time, would that also 
include--an advisory, would EPA issue for other separate types 
of algal--or not algal blooms, but algal toxins? Would there be 
one, or would you have several different types of advisories 
that you would have out there?
    Mr. Grevatt. We will have two health advisories, one for 
microcystin, and a second for cylindrospermopsin. Those are the 
two that we are focused on right now. So there will be two 
documents that will come out. They will both include 
information on health effects, treatment technologies, and 
analytical procedures for sampling these compounds.
    Mr. Latta. OK. Well, thank you very much, and, again, thank 
you very much for being here. And, Mr. Chairman, I yield back 
the balance of my time.
    Mr. Shimkus. Gentleman's time has expired. Chair now 
recognizes the gentleman from West Virginia, Mr. McKinley, for 
5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman, and thank you for--
Congressman Latta for bringing this to our attention. I don't 
think 5 minutes is going to be enough for me, but let me see 
where we can go with this.
    Why Lake Erie? Is this--what made it unique? Because the 
same toxins, or same nutrients are coming into the water in 
Superior and Lake Michigan. Why--the--and is--am I accurate--I 
was told that the--they--they are doing dredging near the port 
in Toledo. So I didn't hear that come up as a possibility of 
something that could be contributing, because you would have 
nutrients absorbed into the sediment that would be disturbed. 
Do you consider that possibly part of the uniqueness of why 
western Erie was a factor?
    Mr. Grevatt. Thank you. So clearly there are a number of 
issues that contribute to the growth of harmful algal blooms. 
We understand that nutrients are a very important factor. We 
also understand that the warmth of the water is an important 
factor. Availability of light is an important factor. And these 
issues come together in western Lake Erie, being a very shallow 
area, one of the most shallow areas of the Great Lakes, that 
has large nutrient inflows, as well as having very warm water 
temperatures. And also relatively stable water, without a whole 
lot of flows, can also contribute. And so that is--all those 
factors are present within western Lake Erie.
    We should be clear that there are many, many lakes and 
reservoirs across the United States that are being impacted by 
harmful algal blooms today, and many states across the U.S. 
that have similar factors of nutrient in----
    Mr. McKinley. But what about----
    Mr. Grevatt [continuing]. Shallow water.
    Mr. McKinley [continuing]. The dredging? Could that be--how 
do you take that into consideration?
    Mr. McKinley. Thank you. So certainly there are a lot of 
nutrients in the Lake Erie system today. Some of those are 
contained within the dredge spoils, and there are some who 
believe that the dredging may be a contributing factor, if they 
are releasing nutrients into the water column, and also 
supporting, then, the growth of the algae.
    Mr. McKinley. What about the zebra mussel that was 
introduced? I understand that also potentially has a 
contributing factor.
    Mr. Grevatt. That is an excellent question, and a number of 
my colleagues within the Great Lakes states are focused on 
issues, including invasive species. The thinking that some have 
shared is that zebra mussels may contribute to the growth of 
harmful algal blooms, cyanobacteria, by essentially 
competitively eliminating the native species of algae, and 
giving the cyanobacteria a greater opportunity to use the 
nutrients that are available to grow and create blooms.
    Mr. McKinley. All right. So--and then go back down to the 
fundamental, it sounds like we are reacting, rather than 
anticipatory. How are they testing for this? Is there just--
under the normal water treatment, does it remove the bacteria, 
and something showed up on a test that was unique that--after 
the fact that we had been using this water for some time? How 
does our conventional treatment take care of this problem?
    Mr. Grevatt. Our conventional treatment technologies can 
take care of the problem, but it is not a simple task to do, 
you know, so there are issues. For example, the microsystems, 
the toxins, are frequently found within the cells, the 
cyanobacteria cells. If one inadvertently breaks open the cells 
in the treatment technology, they can actually make the problem 
worse. So it is not a simple task to remove the cyanotoxins 
from drinking water with standard treatment techniques.
    Harmful algal blooms are not a new problem. They are a 
problem that was present even decades ago, when I was growing 
up in Cleveland, on Lake Erie. There were issues with harmful 
algal blooms on the lake at that time, in the 1960s. We made 
progress, and we see them now coming back for reasons that we 
may not fully understand, all the different factors that are 
contributing to that.
    One of the activities that we put in place at EPA over the 
last several years was a national lakes assessment that 
characterized the conditions of the nation's lakes and 
reservoirs, and that assessment sampled for cyanobacteria and 
for microcystin, and helped to identify the extent of the 
problem across the U.S., and I think contributed, in some ways, 
to the awareness of some states, like the State of Ohio and 
others, to the issues that need to be addressed.
    Mr. McKinley. OK, but that just--there are a lot of 
communities--I don't want to look at the Toledos, and the 
Clevelands, and the Bostons, and--but what about the small 
communities, or rural America? How do--are they going to be 
equipped to be able to do the same water testing that Cleveland 
does, or St. Louis?
    Mr. Grevatt. This is a a very important issue, and you may 
be aware that, not in 2014, but in 2013 Carroll Township, a 
community of 4,000 on western Lake Erie, shut down for several 
days as a result of algal toxins within their system. Carroll 
Township was able to hook up to a neighboring community to get 
pure water provided to their customers, but that may not always 
be the case. And you are right that that is going to be a 
significant challenge for small communities.
    Within our program, our State Drinking Water Revolving Loan 
Fund is focused on providing resources especially to small 
communities. So we provide resources to small, medium, and 
large communities, but especially focused on small communities 
to help them address these sorts of issues.
    Mr. McKinley. OK. I have run over my time. Thank you very 
much.
    Mr. Shimkus. Thank you, and I also want to highlight this. 
You work with the State Revolving Loan Fund. I have got a large 
rural area, and that has been a very successful program. It has 
been very helpful to my community, so--seeing--is there any 
other questions from colleagues present? Seeing none, again, we 
want to thank you for making your trip back. This is an 
important issue. We want to keep our eye on it, and work with 
everything, and stakeholders, to try to make sure that we can 
do what is in the best interest to protect the water supply for 
our constituents and our citizens. So thank you very much, and 
with that, I will dismiss the first panel, and we will empanel 
the second one.
    And we want to welcome, as the second panel--in the order 
at the table, we have the Honorable Craig Butler, who is 
director of Ohio Environmental Protection Agency. We have Mr. 
John Donahue, general manager at North Park Illinois Public 
Water District, on behalf of the American Water Works 
Association. And last, but not least, Ms. Lynn Thorp, national 
campaigns director of the Clean Water Action. Welcome.
    Your full statements will be submitted for the record. You 
will have 5 minutes. It is a--as you see, it is kind of a laid 
back day, so we are not going to be, again, brutal on time, but 
if we can get to questions eventually, that would be great. And 
I also want to thank--Mr. Grevatt is still sitting here, which 
I think is very important, and thank you for attending for a 
little bit longer.
    So with that, Mr. Butler, you are recognized for 5 minutes.

  STATEMENTS OF THE HONORABLE CRAIG W. BUTLER, DIRECTOR, OHIO 
ENVIRONMENTAL PROTECTION AGENCY; JOHN DONAHUE, GENERAL MANAGER, 
 NORTH PARK (IL) PUBLIC WATER DISTRICT, ON BEHALF OF AMERICAN 
  WATER WORKS ASSOCIATION; AND LYNN THORP, NATIONAL CAMPAIGNS 
                  DIRECTOR, CLEAN WATER ACTION

                  STATEMENT OF CRAIG W. BUTLER

    Mr. Butler. Good morning, Mr. Chairman, Ranking Member 
Tonko, rest of the members of the committee, Representative 
Latta also for the invitation today. We appreciate it. I am 
Craig Butler, Director of Ohio EPA, and the Environmental 
Protection Agency, we appreciate the opportunity to offer 
testimony on the important subject of cyanotoxins, or harmful 
algal blooms, or sometimes we call them HABs, in our drinking 
water. The importance of this hearing, as we have heard today, 
cannot be highlighted more by the events of early August in 
Toledo, when nearly 500,000 people were told not to drink the 
water due to presence of microcystin in public drinking water 
above an acceptable level. Recommending the issuance of this 
was not taken lightly, given the significance of the social and 
economic impact. But in consultation with experts on my staff, 
a decision had to be made to protect public health, and was 
based on the best science available.
    Ensuring that Ohio's 4,500 public water systems provide 
safe drinking water is one of the most important 
responsibilities I have as director at Ohio EPA. This includes 
125 systems using surface water, several of which draw their 
water directly from Lake Erie. To do this, Ohio implements and 
enforces drinking water standards and regulations established 
by U.S. EPA. I believe U.S. EPA's general regulatory approach 
is very robust, results in scientifically defensible and 
feasible regulation.
    In dealing with HABs in Ohio drinking water supplies, we 
had to short circuit this rigorous regulatory process out of 
necessity. For example, in 2010, largely responsible to a 
significant harmful algal bloom in Grand Lake St. Mary's in 
Western Central Ohio, the state established a strategy to 
identify and respond to the presence of toxins in water being 
used for recreation, and as a source of public drinking water. 
Ohio has established sampling and analytical protocols, and 
also public health advisory levels, for several of the most 
commonly identified toxins. And while we worked with U.S. EPA 
on many of these issues, Ohio realized we would need to lead 
the nation in many respects, and have to go it alone, if you 
will, since a national regulatory testing framework was not 
completed at that time.
    With the technical assistance of U.S. EPA since, and the 
Office of Water, and the Office of Research and Development, 
which is located in Ohio, we are pleased, and have been able to 
work with Toledo to ensure that their treatment plant was again 
operating properly, and able to provide Toledoans with safe 
drinking water.
    One of our lessons learned, if you will, and one of the 
very first of many steps we took to combat harmful algal blooms 
after the event in Toledo was to immediately make $1 million 
available in grant funds for cyanobacteria testing equipment to 
communities so water systems across the state could, and can, 
conduct their own monitoring for the presence of HABs. We 
believe this will enable them to more closely monitor the 
source water for algal blooms, and rapidly respond with any 
necessary treatment and adjustments.
    We also made $50 million available through zero interest 
loans for enhanced water treatment and infrastructure, and 
backup water sources at public water systems. And while not 
directly related to drinking water, we also, at that time, made 
$100 million available to our wastewater treatment systems 
across the state to help manage the issues about nutrients 
being discharged from their waste treatment systems.
    Ohio EPA continues to coordinate with U.S. EPA regarding 
the health advisory we spoke of--heard Dr. Grevatt speak of 
this morning about levels expected to be issues--issued by the 
U.S. EPA next spring, as well as the analytical methodologies, 
and the effectiveness of various treatment processes. We know 
they have accelerated this work, and we applaud their efforts 
to provide more guidance to states. We have also been 
coordinating with other states through the Association of State 
Drinking Water Administrators, and concur with the comments 
contained in ASDWA's November 14, 2014 letter to this 
subcommittee.
    Ohio EPA has been active in addressing HAB and drinking 
water sources, but as I can tell you, these issues are very 
complex. Many other states are under similar circumstances, 
although only about six have identified health advisory levels. 
Those levels are different, and based on a small set of data 
and information about HABs. It is my belief that the country 
would benefit from having a national dialogue, and establishing 
a consistent set of national standards for all to follow.
    Specific elements of the national approach should include a 
robust assessment of the health effects, and recommended health 
advisory levels not only for microcystin, but also for other 
variants of microcystin, as well as other common cyanotoxins. 
Second, standard analytical methods that are reliable and 
selective, but also affordable, guidance on the appropriate 
frequency of monitoring. Additional information on the ecology 
of cyanobacteria, and more guidance on the reliable treatment 
approach are necessary.
    In the long term, however, we believe that the best 
approach is to protect public water supplies through a source 
water protection plan, as well as preventing blooms via data 
driven targeted strategies to address nutrient pollution from 
not only agriculture, but other point sources, non-point 
sources, and other sources in general. As we are putting--and 
we are putting that into place in Ohio today. With the support 
of significant funding through the GLRI, or the Great Lakes 
Restoration Initiative, we have developed a coordinated 
strategy with the State's Department of Agriculture, Natural 
Resources, EPA, and Health to develop prescriptions for 
watersheds in the Lake Erie Basin to address nutrient 
pollution, based on data we have available.
    In summary, EPA takes very seriously the quality of water--
drinking water supplied to our public water systems. Ohio has 
taken many proactive steps to address the issue. It is our 
strong belief that state and Federal leaders need to work 
closely together to quickly advance the science of detection 
and effective treatment. We stand ready in the State of Ohio to 
continue to lead in this effort, and we will gladly work with 
other states. I appreciate the opportunity to offer this 
testimony to the committee, and would be pleased to respond and 
answer any questions.
    [The prepared statement of Mr. Butler follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Mr. Shimkus. Thank you very much. I would like to recognize 
Mr. John Donahue. Sir, again, you are recognized for 5 minutes.

                   STATEMENT OF JOHN DONAHUE

    Mr. Donahue. Good morning Chairman Shimkus and members of 
the subcommittee. My name is John Donahue, and I am the Chief 
Executive Officer of the North Park Public Water District based 
in Machesney Park, Illinois. I deeply appreciate this 
opportunity to offer input on the critical issues surrounding 
algal bloom, cyanotoxins, and our Nation's sources of drinking 
water. I am here today on behalf of the American Water Works 
Association, which I serve as president. My remarks reflect the 
experiences and perspective of AWWA's nearly 50,000 members. 
Established in 1881, AWWA is the world's oldest and largest 
non-profit scientific and educational association dedicated to 
water. Our utility members provide safe and affordable water 
every day to more than 70 percent of the American population.
    As you know, last August an algal bloom in western Lake 
Erie resulted in the formation of a toxin known as microcystin, 
requiring the City of Toledo to issue a Do Not Drink Advisory 
that affected more than 400,000 people. The formation of algal 
toxins is very complex, and not fully understood. The same can 
be said for their possible human health effects. But one thing 
is certain, this problem is always associated with excessive 
amounts of nitrogen and phosphorus in water.
    According to the U.S. Geological Survey, non-point sources, 
predominantly runoff and air deposition, account for 90 percent 
of the nitrogen and 75 percent of the phosphorous in our 
waterways. The fairest and best strategy for reducing the scope 
and severity of this problem in the future is bringing non-
point sources of nutrient pollution under more effective 
management. At present, though, these sources lie largely 
outside the jurisdiction of the Clean Water Act.
    There are some Federal programs that do have a bearing on 
nutrients in our water, such as the conservation title of the 
Farm Bill. However, these conservation programs are voluntary 
in nature, in contrast to the clean water permit programs, and 
they are not based upon the quality of receiving waters, nor do 
they reflect the need to protect downstream sources of drinking 
water.
    Now, drinking water treatment technology does exist to 
allow drinking water utilities to remove toxins produced by 
algal blooms, however, this technology is very expensive to 
acquire and maintain. In addition, removing these toxins after 
they occur does nothing to protect the ecosystem, and the 
people within the watershed. As a utility manager, the 
protection of public health is always my most important 
priority, and the same is true for the American Water Works 
Association.
    Even before this summer's events, AWWA had taken steps to 
help water systems at risk from algal events. These include 
developing and distributing information to assist water 
systems, and anticipating and responding to source water 
challenges, including cyanobacterial blooms and cyanotoxins, 
prepare a water utility manager's guide to cyanotoxins, which 
is now in its final review, encouraging water systems to 
evaluate their circumstances to determine whether they might 
have unrecognized cyanotoxin concern, and to establish 
appropriate safeguards, and assisting water systems with 
guidance and training in emergency preparedness so that they 
have protocols in place to respond to events like that 
experienced in Toledo.
    Having said those things, utility managers can't solve this 
problem on their own. We need Federal help. Federal agencies, 
including U.S. EPA, USDA, should include existing authorities 
to give much higher priority to nutrient reduction projects 
that protect downstream drinking water supplies. For example, 
the Clean Water State Revolving Loan Fund and Farm Bill 
conservation programs could be targeted and used more 
effectively to reduce nutrient pollution, and protect drinking 
water sources.
    With regard to drinking water regulation, we support the 
science-based standard setting process in the Safe Drinking 
Water Act. EPA has indicated it will use the unregulated 
contaminant monitoring rule process as the first step in 
determining whether the regulation of cyanotoxins affords a 
meaningful opportunity to protect public health, and we support 
that step.
    Finally, and perhaps most important, we ask that Congress 
consider ways to increase the effectiveness of non-point source 
pollution programs. This should include discussing the question 
of whether non-point pollution should be brought under the 
jurisdiction of the Clean Water Act in an appropriate way. It 
would not be equitable to put an increasing burden on water 
systems and their customers to solve this problem if the most 
significant sources of nutrient pollution are not also asked to 
do more.
    In closing, I want to thank the subcommittee for the 
leadership that it is taking today in holding this hearing, and 
I will be happy to answer any questions you may have, either 
today or in the future. Thank you.
    [The prepared statement of Mr. Donahue follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Shimkus. Thank you very much. Now I would like to turn 
to Ms. Lynn Thorp, and you are recognized for 5 minutes.

                    STATEMENT OF LYNN THORP

    Ms. Thorp. Thank you Chairman Shimkus, Ranking Member 
Tonko, and members of the subcommittee. My name is Lynn Thorp. 
I am the National Campaigns Director for Clean Water Action. We 
are a national organization working in 15 states on a wide 
range of issues, including Safe Drinking Water Act 
implementation, and protecting drinking water sources. Clean 
Water Action urges the committee to support aggressive action 
to reduce the nitrogen and phosphorous or nutrient pollution 
that cause harmful algal blooms, which in turn produce 
cyanotoxins. To address cyanotoxins only through drinking water 
regulation and treatment is inadequate, and transfers the 
burden of pollution control to water systems and their 
consumers. Sources of nutrient pollution, as we have heard, 
include agriculture practice, storm water, sewer and septic 
systems, and fossil fuel use in various sectors. Population 
growth and climate change exacerbate the problem.
    As we have heard, some cyanotoxins produced by certain 
harmful algal blooms cause liver damage, nerve damage, and skin 
damage. Excessive nutrients contribute to the growth of these 
harmful algal blooms. But this pollution causes other drinking 
problems as well. The development of nitrate, development of 
increased disinfection byproducts, all of these lead to 
increased public health risks in drinking water and costs for 
consumers. Nitrogen and phosphorous also cause other 
environmental problems, including dead zones and impaired water 
quality, and we know that nutrient pollution causes 
demonstrated economic losses in fishing, recreation, and water 
dependent businesses.
    EPA and some states have taken expeditious action to 
address cyanotoxins in drinking water. As we have heard, EPA 
has placed three cyanotoxins on the contaminant candidate list, 
an important Safe Drinking Water Act implementation step that 
will lead to the research we need to learn more and move on the 
path toward regulation. EPA is also conducting toxicity and 
human health assessments, developing drinking water health 
levels, and also developing laboratory methods so that we can 
measure cyanotoxins consistently.
    I want to note that EPA and states are conducting these 
activities in the face of stagnant and shrinking budgets, and 
possibly inadequate capacity to implement the Safe Drinking 
Water Act, and to reduce drinking water threats as aggressively 
as the public expects. EPA has the authority, under our 
Nation's other landmark water law, the Clean Water Act, to 
address nutrient pollution from all sources. Despite the 
agriculture exemptions in the Clean Water Act, progress can be 
made on addressing a significant source.
    There are other immediate opportunities, as we have heard, 
for EPA to help reduce nitrogen and phosphorous pollution. The 
proposed definition of waters of the United States under the 
Clean Water Act, which clarifies the protection of streams, 
wetlands, and other waters, is a good example. These water 
bodies are a vital part of our water infrastructure because 
they filter pollution, including nutrients, before it makes its 
way to downstream water bodies, often which service drinking 
water sources.
    In an upcoming Clean Water Act rulemaking limiting toxic 
water discharges from power plants, EPA has an opportunity to 
address 30 million pounds of nitrogen, and 682,000 pounds of 
phosphorous discharged by power plants annually into surface 
water. As noted here earlier today, other Federal agencies, 
including the USDA and states, can take significant action to 
address nutrient pollution. Innovative partnerships can also 
play a role. For example, the Source Water Collaborative is 
made up of diverse stakeholders, including regulators, drinking 
water utilities, planners, and environmental organizations 
working together to advance drinking water source protection at 
the local, state, and Federal levels.
    The Safe Drinking Water Act's multi-barrier approach starts 
with source water protection. Clean Water Action likes to say 
we should put drinking water first, which means making 
decisions about upstream activities with a focus on preventing 
drinking water impacts downstream. This results in better 
choices, which prevent other environmental and economic 
impacts. This is certainly true when it comes to nutrient 
pollution. Curbing nitrogen and phosphorous inputs is the right 
choice for drinking water protection, and is the multi-benefit 
approach.
    [The prepared statement of Ms. Thorp follows:]
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
    
    Mr. Shimkus. Gentlelady yields back her time, and thank you 
very much. I will now recognize myself for 5 minutes for my 
round of questioning.
    First, to Director Butler, which stage would you say we are 
in right now on the state of the science of microcystin, 
particularly as it relates to health effects?
    Mr. Butler. Thank you, Mr. Chairman. Just recognize that I 
am not a scientist, like Dr. Grevatt, but--so I will give you 
my layman's understanding of it. So I would say that the--a lot 
of work has been done, much more is needed, and I think much 
more quickly than has been advanced in the past, so that is why 
we have applauded Dr. Grevatt and U.S. EPA Research and 
Development office for accelerating the research about the 
health advisory levels for microcystin.
    We understand, and as you heard this morning, there are 
many different variants of microcystin, many different types of 
cyanobacteria that, frankly, we know very little, if not 
anything, about. Not just in terms of the nature of those, but 
also of the potential toxicity of those. So as we applaud the 
work that is advancing currently, we also would recommend, and 
not want to lose sight of the fact that there are many other 
variants of microcystin and cyanobacterias that are not being 
studied that need additional study.
    Mr. Shimkus. And it is to no one's surprise that I am from 
one of the largest agricultural districts in the Nation, and I 
know that good stewardship is important to them, filter strips, 
and now with incoming technology, the ability to really--I 
think a lot of people have a perspective that this stuff just 
gets sprayed, to the point where it just runs off. And new 
technology is available where they are going to be implementing 
either the herbicide, or the fertilizer, like, right--almost 
specifically right upon the seed. So have you had discussions 
with the agricultural community in--some of these issues in 
dealing with the State of Ohio?
    Mr. Butler. Yes, Mr. Chairman. I think--one thing I just 
wanted to make clear, as we--since 2010, through Toledo, and 
then continuing, this has been an issue that Governor Kasich 
has been active in, and we all have been. As I mentioned, we 
have a very close partnership with the Departments of 
Agriculture and Natural Resources through the non-point source 
programs in Ohio, as well as Ohio EPA and the Department of 
Health, so we have continued to meet and work aggressively on 
this.
    One of the things that we had been working with is with the 
agricultural community, the Farm Bureau in Ohio and 
agribusiness. They have implemented some programs. They have a 
healthy water initiative through the Farm Bureau, where they 
are doing a 20 to 30 year assessment. They have also invested 
several million dollars about--doing edge of field research, 
looking at transport of nutrients off of the fields and how 
that happens. We have recently been working with--through the 
monies that we received through the Great Lakes Restoration 
Initiative, we have been working to implement several programs 
of--in the ag community, including cover crops, making grants 
available for farmers to do cover crops.
    But as you mentioned, the prescription application, the 
prescriptive--very precise, targeted implementation, we know 
that, much like no-till farming was many years ago, that 
equipment was very expensive. Farmers weren't used to--know how 
to use it. I think we are in that same phase now. There is very 
expensive equipment that farmers can use to be very targeted in 
the application of fertilizer through GPS, other technologies, 
and think they are very willing to use it. It is just, how do 
we train them to do that, and then help them purchase the 
equipment to do it?
    Mr. Shimkus. And I think one of the aspects will be 
immeasurable. How do you measure the success of the new 
techniques, and new farm activities, and get credit for the 
great work that is being done in that area?
    Mr. Donahue, cyanobacteria blooms, as I understand them, 
are not a new problem. To what do you attribute more frequently 
observation and reporting in most recent years?
    Mr. Donahue. Thank you, Mr. Chairman. I would say that for 
public water systems, we do see more frequency in these algal 
blooms in our receiving streams. Many more public water 
supplies are using surface water supplies as their source of 
drinking water, especially in the Midwest, as we have seen 
groundwater systems be depleted.
    Certainly the increase in nutrient runoff has had an impact 
on our--the quality of our source water, and, from that 
perspective, I think a relationship, or a partnership between 
the Safe Drinking Water Act and the Clean Water Act, in order 
to help us better understand how those--how that bacteria 
occurs in the receiving streams, and, ultimately, what we can 
do to prevent it from getting into our drinking water supply is 
something we should be looking at.
    Mr. Shimkus. Thank you. There have been a lot of concerns 
coming out of the Toledo experience on monitoring and testing 
procedures and equipment. Could you please speak to the 
feasibility and reliability of the available methods for 
detection and treatment, and also speak to the viability of--
and the affordability of these?
    Mr. Donahue. As far as the analytical processes, I am not 
an expert in the analytical procedures. I do know that there is 
some additional work needing to be done, as far as standard 
method for the analysis of drinking water for cyanobacteria. 
Regarding the cost for public water supplies, certainly 
drinking water is an undervalued commodity today. We spend a 
lot of money--our customers believe that they have a--the cost 
of their water supply----
    Mr. Shimkus. You are choosing your words carefully.
    Mr. Donahue. I am trying to. So water is undervalued to the 
point where somebody would pay $2.50 for a cup of Starbucks 
coffee, but they might squawk at paying the same amount of 
money for a 1,000 gallons of safe drinking water delivered 
right to their tap. So could some public water supplies afford 
to increase their rates? Perhaps. But our position is that, in 
this case, it would be a bit unfair to put all of the burden on 
the public water supplies in this case without looking at the 
sources of the cyanobacteria in the first place.
    Mr. Shimkus. Thank you. My time is far expired, and I 
apologize. Now turn to the Ranking Member, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chair. Mr. Donahue, you indicated 
in your testimony that tackling this problem at the treatment 
plant is not sufficient. Does the American Water Works 
Association support efforts to protect source water by 
eliminating nutrient inputs to drinking water sources?
    Mr. Donahue. We absolutely support anything that can be 
done to prevent these nutrients from running off into our 
receiving waters. I think what I said in my testimony, though, 
is that the treatment processes are available that could remove 
cyanobacteria from the drinking water, but they are very 
expensive to acquire and maintain. Requiring communities to 
purchase advance drinking water technology and implement it 
without doing something at the source water level, we believe, 
would be a bit unfair.
    Mr. Tonko. Yes. And what are the costs to water utilities 
to adequately treat water to remove toxins from the algal 
blooms?
    Mr. Donahue. I don't have that information available to me 
this morning, but we would be happy to provide you with that at 
a future date.
    Mr. Tonko. And we have heard that small and seasonal 
streams and wetlands play a critical role in source water 
protection. That is the goal of the EPA/U.S. Army Corps 
proposal, to clarify the definition of waters of the U.S. Ms. 
Thorp, is the protection of these upstream waters and wetlands 
important for pollution reduction and to control harmful algal 
blooms?
    Ms. Thorp. Thank you, Ranking Member Tonko. Yes, indeed, it 
is. EPA has found, in its scientific analysis accompanying the 
proposed definition, that streams and wetlands play a critical 
role in nutrient reduction. In fact, I believe they found the--
scientific literature over the last several decades replete 
with evidence of this pollution filtering role.
    Mr. Tonko. Yes. And according to EPA, drinking water for 
over 117 million people comes from public water systems that 
rely, to some degree, on seasonal streams. And so, Ms. Thorp, 
if we do not protect the feeder creeks and upstream waters, is 
there an impact on drinking water quality for these 
communities?
    Ms. Thorp. Thank you. Yes, sir, we think so, and we think 
that number is a low estimate, because that was based on an 
analysis only of headwater streams and the public water systems 
that serve what--about a third of our population. But, of 
course, the impact of streams and wetlands, and their role in 
filtering pollution, including nutrient pollution, is much 
broader than that. It includes many people relying on private 
wells, for example.
    Mr. Tonko. Yes. And, Mr. Donahue, if we don't do more to 
protect source waters, what does that mean for water utilities 
and their customers?
    Mr. Donahue. Well, certainly that if we don't do something 
to remove nutrients from source water before it gets to the 
drinking water treatment plant, treatment facilities will have 
no choice but to impose treatment techniques that would remove 
those potential contaminants. Our first priority is to protect 
public health, and if we can't control that on the source side, 
then drinking water utilities will have no alternative but to 
increase their treatment capability, and the cost associated 
with that would be transferred to our customers.
    Mr. Tonko. You know, I hear about the seriousness of this 
issue, and the toxicity that impacts society in general. 
Perhaps the misunderstood status of the regulatory 
opportunities under the Clean Water Act. We are also 
compounding the situation with climate change, a science that 
oftentimes is ignored.
    Some of the predictions for climate change impacts are for 
far more extreme weather events, and altered weather patterns. 
This might include more intense rainfall events, which--
obviously cause for additional washing of these nutrients into 
the system of toxic elements, warmer summers, higher 
temperatures obviously being an impact here, longer droughts, 
for example. Ms. Thorp, what impact would these changes have on 
harmful algal blooms?
    Ms. Thorp. Thank you, sir. I think a number of impacts of 
extreme weather events and warming temperatures can affect the 
problems we are talking about here. One example is that the 
growth of harmful algal blooms, and, in fact, all algal blooms, 
is not completely understood, as we have heard earlier today, 
but we know that warming temperatures, as well as rainfall 
patters, can affect that growth. We also know that excessive 
rainfall, for example, can lead to increased nutrient runoff, 
which then is feeding the problem in another way.
    Mr. Tonko. Yes. Mr. Donahue, were you looking at that, 
that----
    Mr. Donahue. No.
    Mr. Tonko. OK. All right. With that, I yield back.
    Mr. Shimkus. Gentleman yields back his time, and the Chair 
now recognizes the gentleman from Ohio, Mr. Latta, for 5 
minutes.
    Mr. Latta. Well, thanks again, Mr. Chairman, and thanks 
again for having our hearing, and thanks to our panel for being 
with us today. Really appreciate your time and expertise in 
this matter. And if I could--Director Butler, if I could ask 
you some questions right off the bat?
    It was mentioned a little bit earlier that there are 
several types of cyanotoxins of concerns just besides the 
microcystins. Do you believe it would be helpful if the U.S. 
EPA had a comprehensive list of cyanotoxins determined to be 
harmful to human health in drinking water?
    Mr. Butler. Mr. Chairman, Representative Latta, yes, we do. 
We know that that would take a long term commitment from U.S. 
EPA, and take an extensive period of time to do that, 
particularly if they were to develop regulatory levels about 
the harmful impacts for that. We are encouraged by the 
acceleration to provide states with some additional information 
and health advisory in 2015.
    We think that will add to the body of research that is out 
there, although we think that we need to continue to 
accelerate, keep our foot on the gas, so to speak, about not 
only moving through 2018 with--moving with a regulatory level, 
not only for those that U.S. EPA had identified, but also do 
not forget about the other cyanobacteria and harmful algal 
derivatives that are out there that also need attention.
    Mr. Latta. And also, you know, all the conversations we had 
during that first week of August, you know, when Toledo was 
having its crisis out there, in all that was going on, I know 
that--you mentioned what the state has done, especially on 
funding from the U.S.--or from the Ohio EPA. Because of the 
cost--because there was a significant amount of dollars here, 
when we are talking about the different types of testing that 
are going to be going--that could be done--and if you could 
just maybe go into all of it? Because I know that we are 
talking about, you know, the Elisa Method, and the LC-MS/MS 
test method that is being--that is more robust and efficient 
than the others, and being able to find different variants.
    But if you could just kind of go into that, because I found 
it pretty interesting, number one, the cost, two, about getting 
the equipment, and three, about finding the personnel, being 
able to just run that equipment. And then, again, I think, in 
the north end of Ohio we have about 140 plus systems out there 
that are utilizing surface water, and what that would entail 
for all of those communities. I know that is a long question.
    Mr. Butler. Mr. Chairman, Representative Latta, exactly 
right. We have made a million dollars, as I mentioned in my 
testimony, I think we have 125 systems that are surface water 
systems in the State of Ohio, many of those which take water 
directly from Lake Erie. We came to that relative number of a 
million dollars because we wanted to offer this Elisa screening 
technology to all of them. That cost of doing that is about 
$10,000, so a relatively modest amount of money.
    What you get from that, in my layman's terms, is you get a 
piece of technology that is a broad spectrum identifier, if you 
have microcystin in your water. It is not a piece of technology 
that helps speciate out which protective variant or congeners 
you have, or what kind of cyanobacteria you have got. If it is 
in there, it will tell you it is there, but it won't tell you 
which one it is, and it won't tell you whether it is one of 
those that may be harmful, or which ones it may not be.
    So we think it is a great screening tool, and we think that 
a tiered approach would be most effective. If we are going to 
move into a more detailed system, and you talked about the LC-
MS/MS technology, Dr. Grevatt could tell you what all of that 
acronym means, but, in my view, what it will do is a much more 
refined testing methodology that gets down and helps you 
identify what variant of cyanobacteria do you have, and whether 
or not it may be one that is harmful. That is also helpful. If 
you could use that as the Elisa Method to determine whether you 
have something to be concerned with, then you could rely on the 
LC-MS/MS technology to then figure out exactly what variant you 
have go hand in hand. The issue we have with the LC-MS/MS is--
or the HPLC, which is another, is cost.
    Rather than $10,000 for a piece of equipment of Elisa that 
a small community could run, and learn that very quickly, the 
cost to us in the State of Ohio would be around $400,000 for 
one piece of equipment. On top of that, you have the 
development of the method, which could take many months, 8 to 
12 months to find the method. And then, for us, it is a cost 
concern about just finding somebody that is capable of running 
it. It is a very specialized piece of equipment. Having 
somebody with the right degree and credential to be able to 
keep them on staff and pay them, frankly, a state salary is 
very difficult. So while we like that technology, we also don't 
want to suggest that that be the only potential technology we 
use.
    Mr. Latta. If I could just follow up just briefly? With 
that, how many communities could utilize one piece of 
equipment?
    Mr. Butler. Mr. Chairman, Representative Latta, that is a 
good question. We have talked internally, and with U.S. EPA, 
about whether the State of Ohio or communities could group 
together. I think they could all--and we are seeing that happen 
now, frankly. Some communities do not want to take the grant 
monies from Ohio EPA, even for the $10,000 for the Elisa 
technology, because they are very close to another small 
neighborhood that is, or has the technology. They are 
partnering together, sharing services, which we very much 
applaud in the state. Sharing those services, banding together, 
and doing the testing.
    So it is conceivable, and we would encourage it, that there 
would be a way for many communities to band together and use an 
HPLC methodology. We could also help them, through our testing 
capabilities with the State of Ohio. I know U.S. EPA has this, 
as well as many universities too, so there are multiple 
options, so not every community would need to invest that time 
and money.
    Mr. Latta. Thank you. Mr. Chairman, I appreciate your 
indulgence in time, and I yield back.
    Mr. Shimkus. Gentleman's time has expired. Chair now 
recognize the gentleman from Mississippi, Mr. Harper, who will 
be the vice-chair of this subcommittee in the next Congress. We 
want to congratulate him on that, and you are recognized for 5 
minutes.
    Mr. Harper. Thank you, Mr. Chair, and I want to thank the 
Chairman, and look forward to the next term, and I hope you 
will be pleased with that decision, so thank you. And glad to 
have the panelists here today, appreciate this. This is an 
important topic, important to many of us. And if I could start 
with Mr. Butler?
    And what is your expectation of how U.S. EPA should engage 
with the states before issuing its public health advisory?
    Mr. Butler. Mr. Chairman, Representative Harper, that is a 
great question. What we have been encouraged by so far is the 
great working relationship we have got. We are very blessed to 
have the Office of Research and Development in Cincinnati. So 
them being able to help us in the Toledo situation was very 
helpful. In fact, we were flying samples down in the middle of 
the night, and their staff, you know, went to the airport to 
pick these samples up in the middle of the night, so it was 
just a great opportunity for us. We have been encouraged since 
then. We have got a great working relationship.
    And to answer your question directly, what we would prefer, 
and what we would like to see happen, is, as U.S. EPA--and we 
know they are on a very fast track to get us this health 
advisory information, but as they are going through this 
process to engage states that are interested, or that need to 
be engaged in the development of that, rather than at the end, 
after they develop that, hold a public hearing and public 
comment period. So I know it is a balance. We want to see this 
move along quickly and get the information, but we would prefer 
to be engaged up front, because we think we have information to 
offer.
    Mr. Harper. And if I may ask, Mr. Butler, since the algal 
problem in Toledo, is the Ohio EPA on much better ground 
regarding testing protocols for microcystin?
    Mr. Butler. Mr. Chairman, Representative, I think we are. 
You know, we have learned a lot after working with Toledo. We 
also have worked with all of our other surface water systems, 
not only in terms of offering technology and treatment, but we 
have developed, and have redefined, and continue to redefine on 
a consensus basis, with all of our surface water systems, 
statement of operations on how we--everybody consistently 
manages tests for cyanobacteria.
    Mr. Harper. You know, I am very pleased with your earlier 
comments on the coordination between the Ohio EPA and U.S. EPA 
of what you went through, and the----
    Mr. Butler. Yes.
    Mr. Harper [continuing]. That coordination that took place. 
But if we were looking overall, what improvements to government 
coordination between the states and Federal Government would 
recommend would need to occur, and why?
    Mr. Butler. Very specifically, and I will just reiterate a 
comment I had before, as we focus more attention, and U.S. EPA 
is starting to aggressively develop not only health 
assessments, but further on, with potential regulatory limits 
in safe drinking water, through the contaminant rule, I think 
that coordinating more up front versus more reactive is 
something we would encourage, and think it ultimately leads us 
to a better product. I think we get there quicker, and I think 
U.S. EPA would concur with that. So it is not a fault, but I 
just think a process that would allow that would be much more 
beneficial.
    Mr. Harper. And, Mr. Donahue, if you can just kind of 
educate me a little bit, and those that are tuning in, discuss 
effective ways to treat drinking water for the cyanotoxins.
    Mr. Donahue. Thank you, Congressman. Yes, typically, 
conventional coagulation and sedimentation can take care of 
this. There are a number of other treatment technologies that 
are able to remove cyanotoxins from the water. Pre-treatment 
oxidation, and even microfiltration with membrane treatment are 
all options for treating drinking water.
    Mr. Harper. OK. Some of our testimony today talks about 
predicting cyanobacteria blooms through National Oceanic and 
Atmospheric Administration modeling. Can you please speak to 
the challenges of relying on this too much?
    Mr. Donahue. I really don't have the answer for that 
question right now, but we would be happy to provide that.
    Mr. Harper. Anybody else on the panel want to take a shot 
at that? OK.
    Mr. Butler. Well, Representative, what we are encouraged by 
is NOAA continues to refine their modeling, and being able to 
provide more and more specialized assessments in the western 
basin, we also are working with our aviation centers in Ohio in 
how we can coordinate with NOAA, and even NASA, on being able 
to provide more detailed information about looking at the 
western basin almost in real time, in a very specific location. 
The caution would be not to rely on that completely, because 
you may not always find that those are if we have a harmful 
algal bloom, that those are visible from the surface, or from a 
multi-spectrum scanner.
    So the need to do consistent sampling, and we do that in 
the near shore environment around the western basin, Ohio EPA 
and others do sampling to give us a predictor of when those 
harmful algal blooms may be in place.
    Mr. Harper. Thank you, Mr. Chairman, and I yield back.
    Mr. Shimkus. Gentleman yields back his time. Chair now 
recognize the gentleman from West Virginia, Mr. McKinley, for 5 
minutes.
    Mr. McKinley. Yes, thank you, Mr. Chairman. At the 
conclusion of Grevatt's comment, and I think the Chairman 
mentioned it, and then I think, Mr. Donahue, you mention it as 
well, and that is the State Revolving Fund, I want to get back 
to that in a minute, but I thought I heard you say in your 
testimony that there were some 4,500 water treatment facilities 
in the State of Ohio. Is that accurate?
    Mr. Donahue. That is correct, sir.
    Mr. McKinley. And so we are now--and I don't know how many 
of that would be across the country. Yes, if there are 4,500 in 
the State of Ohio, I don't know, how many water treatment 
facilities would we have across the country? Thousands?
    Mr. Shimkus. You may want to direct that to Mr. Donahue, 
David.
    Mr. McKinley. Yes.
    Mr. Donahue. Drinking water treatment facilities, there are 
in the neighborhood of 50 to 55,000 treatment----
    Mr. McKinley. OK.
    Mr. Donahue [continuing]. Facilities----
    Mr. McKinley. But not all of them are going to be surface 
water----
    Mr. Donahue. No.
    Mr. McKinley [continuing]. But I think we are primarily 
focused back on the State Revolving Fund, we have had people 
come before us in this panel, and other committees, where they 
have talked about--the State Revolving Fund doesn't have an 
adequate amount of money to meet all of their challenges that 
they have. And perhaps this is--this situation--I am not 
denying it is happening. I think we have to deal with that, and 
it is just going to exacerbate the problem all the more if 
there is not sufficient money with the SRF. Would you agree 
with that?
    Mr. Donahue. Absolutely. There is significant competition 
for SRF funding right now. AWWA has produced a report that has 
identified more than a trillion dollars' worth of 
infrastructure requirements for the country in the next 20 
years, and that alone can tax the SRF program. And this would 
only serve to make that matter worse.
    Mr. McKinley. Well, thank you, because I am concerned, as I 
mentioned in my earlier remarks at the last panel, where those 
small communities, 4,500--how they are going to come up with 
the money, and there has to be a grant to be able to help them 
out to do this. And if the SRF doesn't have sufficient funds, 
it just exacerbates this problem all the more.
    So, having said all that, I am curious, and probably should 
have asked Grevatt when he was here, why would the EPA reduce 
funding for the SRF? The president just came out with his 
budget, reduces the State Revolving Fund by nearly 40 percent. 
And when we asked them that question, why did they reduce it, 
knowing so many people in these small communities need the 
money, why would they do that? And his--and her answer was, we 
have changed our priorities. Our priorities are not State--
providing money for communities for water systems, but rather 
for climate change initiatives, pamphlets, literature, and 
education processes around the country, and perhaps around the 
world.
    How would you--in terms of priorities, OK, would it be 
better to be able to provide money for the--these communities 
that need water, clean water? Because we have all talked about 
how desperately we need it. Or is it more important that we 
have climate change initiatives?
    Mr. Donahue. Certainly, Congressman. Maintaining the SRF 
program, and even increasing it, is something that the American 
Water Works Association fully supports. Many of our small, 
medium, and large communities rely quite heavily on the 
revolving loan funds to support capital projects within their 
community.
    Mr. McKinley. So you would have a problem with transferring 
$581 million out of the State Revolving Fund?
    Mr. Donahue. I am not sure I am the best person on this 
panel to answer that question, and Dr. Grevatt is still here, 
but I would say yes.
    Mr. McKinley. Thank you. I yield back the balance of my 
time.
    Mr. Shimkus. Gentleman yields back his time. Looking to the 
minority side, Mr. Barrow waives. Chair recognizes the 
gentleman from Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and thank you to the 
panel members for joining us today. Mr. Butler, it is good to 
see some home folks here today from Ohio.
    Mr. Butler. Yes, sir.
    Mr. Johnson. Good to have you.
    Mr. Butler. Thank you.
    Mr. Johnson. Mr. Butler, does Ohio EPA support the U.S. EPA 
issuing a non-contaminating monitoring rule for microcystins?
    Mr. Butler. Mr. Chairman, Representative Johnson, yes, we 
do?
    Mr. Johnson. You do?
    Mr. Butler. Yes.
    Mr. Johnson. OK. How is Ohio dealing with nutrient 
contribution to source water from non-agricultural 
contributors?
    Mr. Butler. Mr. Chairman, Representative, that is a good 
question. As I mentioned in my testimony, some of the immediate 
after action items that we did was--we were able to secure some 
money from U.S. EPA. You have often heard, in our state, people 
talking about how Grand Lake St. Mary's was called a watershed 
in distress, and there has been a call for calling the western 
basin of Lake Erie a watershed in distress. While we think this 
is important, and that is a designation that we see as useful 
in a grand lake, it is not something that we agree with for the 
western basin, and the reason is it is only focused on 
agricultural sources. There are many contributing sources in 
the western basin that are non-agricultural.
    We have used the money that was provided by U.S. EPA by the 
GLRI to go down into the very small sub-watershed levels, use 
the information we have through our monitoring and sampling 
that worked throughout the state, and in the western basin, to 
determine if it is an agricultural contribution that is most 
predominant, if it is point source, or other non-point source, 
in many parts of our state we have failing not--failing on-lot 
septic sewage systems. It is generally a combination of all 
those. No watershed is the same. So we have been able to use 
that money to target and develop--I call it a prescription for 
each one of these very small sub-watersheds. That is much more 
productive, than--it is just a broad brushed approach.
    Certainly agriculture recognizes that they have a 
contribution, and they are--they have, and we agree, that they 
have stepped up to help us here. But there are other sources 
that we are also working on. We have introduced two pieces of--
we are going through our end of the year legislative session. 
In House Bill 490 we have recently added two components. One is 
adding monitoring, a requirement that all of our wastewater 
treatment plants would include monitoring for phosphorous, so 
we can determine if they are contributing, and then manage 
that. And the second is we introduced part--a bill that would 
disallow, unless under certain conditions, the open lake 
disposal of dredge material on Lake Erie, which is also thought 
to be a contributor for harmful algal blooms.
    We have also--on the agriculture side, we have worked a lot 
through Senate Bill 150 that was implemented, on training all 
the farmers to make sure that they are certified on application 
of manure. And we have also done cover crop work. We have done 
soil testing. And so we have got a comprehensive program across 
the board.
    Mr. Johnson. OK. Well, thank you. I understand that some 
groups in Ohio have a citizen sampling program for dealing with 
microcystin. Are the groups operating in Toledo working with 
Ohio EPA?
    Mr. Butler. I have heard that the groups exist. It is not 
to my knowledge they have worked with us.
    Mr. Johnson. OK. Does Ohio EPA have a citizen sampling 
program?
    Mr. Butler. We have a program called Credible Data, so 
whether it is Ohio EPA--we have got a lot of scientists that 
are out in the field collecting water quality data. We will 
accept, under certain conditions, if they, you know, if 
citizens or other organizations collect samples, we can accept 
those, as long as they follow the proper chains of custody, and 
that the samples are accurate samples. We have not only 
guidance in Ohio, but law in Ohio that directs how we do that, 
and we are willing to train people to do that.
    Mr. Johnson. OK. Well, you mentioned chain of custody. How 
important is chain of custody, and using approved methods when 
sampling is occurring?
    Mr. Butler. It is crucial. We base all of our decisions 
based on science, and the legality of those results. So having 
a complete chain of custody from the time the sample is taken, 
knowing how those samples were taken, what parameters they are 
taken, make sure they are taken under the right methods, they 
are preserved correctly, that those samples then are handled 
correctly for certain periods of time. Some call for icing of 
those samples, some don't. So the whole chain of custody, and 
how those samples are managed to get them to our laboratory, to 
get them through our testing methodology, is critical. And if 
it is not done the right way, it calls into question the 
result.
    Mr. Johnson. OK. Well, thank you very much. Mr. Chairman, I 
yield back.
    Mr. Shimkus. Gentleman yields back his time. I would be 
remiss if I didn't also mention the USDA Rural Development 
ability to access water assistance for small rural Americans. 
It has been very, very helpful, and I can't say enough about 
it. Based upon the agreement between the majority and minority 
committee staff, I would like to request unanimous consent that 
the letters from the following organizations, as well as their 
attachments, be inserted into the hearing record. The 
Association of State Water Drinking Administrators, the 
Internal Bottled Water Association, the Fertilizer Institute, 
the American Municipal Water Association. Without objection, so 
ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. I would also like to request unanimous consent 
that members have 5 legislative days to submit statements for 
the record. And, with that, I want to thank you for coming. I 
think it was very helpful and educational. I look forward to 
working with you, and the hearing is adjourned.
    [Whereupon, at 11:41 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    I want to thank the Chairman of the subcommittee for 
recognizing me.
    Today, this panel is going to examine the issue of blue-
green algae in the water which is treated for use in Americans' 
drinking water taps.
    As we've already heard, this past August, in an effort to 
protect its customers from elevated levels of algae toxins in 
the water, the City of Toledo, Ohio urged all customers of its 
Collins Water Treatment Plant to neither drink nor boil its 
treated tap water until an ``all clear'' was issued.
    This protective effort though was little comfort for some 
who were confused about what the ``DO NOT USE'' order meant and 
were anxious about the adverse health impacts that exposure to 
cyanotoxins (CY-AHN-O-toxins) could inflict: damage to the 
liver, skin, or nervous system. In addition, cyanotoxins (CY-
AHN-O-toxins) were known to inflict death upon exposed 
wildlife, livestock, birds, and pets.
    Toledo is not a one-off when it comes to harmful algal 
blooms in fresh water that is used as a source drinking water. 
While I am not aware of any cyanotoxins (CY-AHN-O-toxin) issues 
with Lake Michigan, the Toledo incident did have fellow 
Michiganders in Monroe County on alert as well.
    Cyanobacteria (CY-AHN-O-bacteria), the microorganisms 
considered as important contributors to the formation of the 
Earth's atmosphere and need for nitrogen are also frequently 
connected to harmful algal blooms, technically known as 
cyanotoxins (CY-AHN-O-toxins).
    Cyanobacterial blooms usually occur according to a 
combination of environmental factors e.g., nutrient 
concentration, water temperature, light intensity, salinity, 
water movement, stagnation and residence time, as well as 
several other variables. Consequently, when cyanobacterial 
blooms occur in drinking water resources, treatment has to 
remove both cyanobacteria (avoiding cell lysis and subsequent 
toxin release) and aqueous cyanotoxins previously released.
    As the subcommittee chairman said, this is a highly complex 
issue which is national in scope, but only gained national 
attention a few months ago. The Association of State Drinking 
Water Administrators reports that nine states have created 
programs, developed health thresholds, or enacted policies and 
protocols for sampling and issuing public notices on harmful 
algal blooms.
    There are many types of blue-green algae and the diversity 
of their habitats make it complicated to predict the precise 
conditions favoring their growth. Physical factors that affect 
whether harmful algal blooms grow include available light, 
weather conditions, water flow, temperature, and mixing within 
the water column. Chemical factors include pH and nutrient 
(primarily nitrogen and phosphorus) concentrations.
    I appreciate that our subcommittee is going to get a better 
understanding of this issue, particularly from both Federal and 
state regulators, who worked so hard to get this issue under 
control late this past summer.
    I also want to commend Mr. Latta for his dogged attention 
to this matter.
    Our committee is but a piece of the cyanobacteria and toxin 
puzzle, but an important one for anyone who drinks finished 
water from a utility. I look forward to the testimony of our 
witnesses.
    I yield back the balance of my time.
                              ----------                              


               Prepared statement of Hon. Henry A. Waxman

    Today's hearing focuses on a growing public health threat, 
cyanotoxins in drinking water. Harmful algal blooms can grow 
out of control in our nation's waterways, posing risks to those 
who drink, swim, or even fish in contaminated water. If these 
blooms are blue-green algae, also called cyanobacteria, they 
produce toxins called cyanotoxins.
    Cyanotoxins can cause a long list of health impacts: liver 
damage, skin and eye irritation, gastrointestinal illness, 
neurological effects, cancer, paralysis and death. And exposure 
to these toxins can occur through direct contact, drinking 
contaminated water, consumption of contaminated fish, and 
inhalation of aerosolized toxins.
    Every year, toxins released from algal blooms prompt 
seasonal closures of shellfisheries around the Pacific, Gulf, 
and Atlantic coasts in the United States.
    The toxins are also a serious issue in the Great Lakes. 
This year, the toxins forced the closure of a major drinking 
water system, leaving 500,000 people in the city of Toledo 
unable to use their tap water for two days. The water was not 
safe, even for bathing, and boiling it would do nothing to 
remove the toxins.
    There are important steps Congress should be taking to 
address this threat. We need to provide more resources to EPA. 
EPA doesn't have the resources it needs to monitor the extent 
of the contamination, develop health advisories and drinking 
water standards, or provide technical assistance to states and 
drinking water systems.
    We also need to reauthorize the State Revolving Fund to get 
resources to affected utilities. And we should speed research 
into testing methods and treatment techniques. But we must also 
address the root causes of these algal blooms, and one of them 
is climate change.
    Water temperature is a key factor in the growth of harmful 
algal blooms, and climate change has already lengthened the 
bloom season. Warming waters, elevated carbon dioxide levels, 
and acidification all provide a competitive advantage to 
harmful algae over other organisms, leading to greater 
frequency and intensity of blooms.
    Climate change has also increased extreme weather events, 
which create favorable conditions for algal blooms. Heavy 
precipitation and flooding increase nutrient runoff and 
pollution. In droughts, lower water levels can concentrate 
nutrients and allow them to stay in the water longer, enhancing 
the conditions favorable to algal growth. Droughts have also 
increased salinity in freshwater ecosystems, allowing toxic 
marine algae to move to inlands waters.
    A recent report by Smithsonian researchers found that 
climate change has exacerbated the harmful algal bloom 
problem--in fact, they found that the effect of climate change 
on harmful algal blooms has been grossly underestimated.
    Our first step must be to stop denying the facts and to 
stop underestimating the impacts of climate change. It may be 
politically convenient to deny climate change is real. Science 
deniers don't have to cut emissions or make hard choices. And 
they don't have to take on the biggest polluters in the 
country, whose efforts to sow confusion and doubt have been 
determined, sophisticated, and well-funded.
    But denying climate change is irresponsible and reckless. 
We have a window in which we can act. If we don't act, algal 
blooms and so many other problems caused by climate change will 
grow worse.
    And history will look back at this Congress with shame and 
embarrassment and ask why we failed to heed the warnings of 
scientists.
                              ----------                              


                Prepared statement of Hon. Marcy Kaptur

    When I was first elected to Congress, there were two pairs 
of nesting bald eagles left on Lake Erie. Our nation's symbol 
was an endangered species. Yet, due to passage of the Clean 
Water Act, a decade earlier in 1972, the banning of DDT, and 
the vigilant efforts of citizen naturalists and 
environmentalists near and far, today there are over 200 pair 
of nesting eagles on Lake Erie. Our efforts to restore our 
wildlife refuges and natural habitats, as the decades have 
ensued, are paying off.
    This year over 300 eaglet chicks hatched. The bald eagle 
has been taken off the endangered species list.
    Indeed, about 2 years ago, a pair of adventuresome bald 
eagles took flight from our western basin, flew east, and 
established a nesting site in the Cuyahoga Valley National 
Park. Literally, Lake Erie's Western Basin has given rebirth to 
the bald eagle across our region.
    This giant accomplishment of human beings helping nature 
restore herself teaches us that America can achieve what she 
sets out to do.
    Our place here in Lake Erie's Western Basin is truly 
blessed. Nowhere on the face of the globe does this much 
freshwater meet this much arable land. Nowhere. This rich land, 
site of the former Great Black Swamp, formed as Lake Erie's 
glacial waters receded from as far west as Ft. Wayne, giving 
rise to a productive life bowl that even hosts our community's 
mascot - the Mud Hen - a little brown duck called the ``coot.''
    This freshwater kingdom and the land around it was tiled 
and drained for agriculture. The fields are abundant and our 4-
season region is sustainable. The highly productive soils of 
Providence Township and points west, south, and east of it are 
precious, surely in a world whose population is slated to 
expand geometrically, at a faster and faster rate. When I was 
born, our nation's population was 146 million. In half a 
century, it has doubled to over 300 million. And, in even less 
time, by 2050, it is projected to rise to 500 million people - 
a population two and a half times as large as in the post WWII 
years.
    Agricultural innovation and pushing the science of 
production has made it possible to meet our food supply needs 
and to export to a hungry world, especially those in less 
productive regions. Fertilizer levels have been quadrupled in 
the past quarter century to replenish depleted soils for higher 
yields and double cropping. Fertilizer composition has been 
altered, sometimes eliminating ingredients like sulfur that 
play a role in soil and water health. Sulfur helps break down 
phosphorus, one of the nutrients that explode algae's growth.
    But one natural resource on the face of the earth cannot be 
magically increased - and that is fresh water. There is a 
finite amount, and though its form gets changed and shifted 
around by the seasons, its quantity remains the same globally.
    In an era where other regions are experiencing water 
shortages, the Great Lakes contain 85 percent of the freshwater 
in the United States and 20 percent of the world's supply.
    On a planet where there are increasing calls by humans and 
animals for fresh water, it behooves us to stop and consider 
how our precious waters and arable soils can be managed for the 
sake of future generations. The stresses on our waters are 
growing and significant.
    We need clean water and we need replenished soils. We can't 
afford to destroy either for the sake of the 11 million people 
who live here and generations to follow.
    In Toledo, the taps are back on, but the water crisis 
continues. Our water is drinkable again, but the emergency 
still exists.
    The toxic algae threat has receded for the moment, but the 
image of our community has suffered untold, tremendous damage.
    Rainfall across our region has changed. Sudden, extreme 
downpours are more and more common, increasing the nutrient 
runoff into streams and rivers. Our climactic zone has moved up 
a zone. Ohio's climate is now like Tennessee's. In a nation 
where 17 states in the arid, fire ravaged West are facing 
scarcity, we are dealing with a different sort of dilemma.
    There is the reality that Lake Erie is sick again - very 
sick. It might even go the way of Grand Lake Saint Mary's, the 
western Ohio watershed that is in grave trouble. Lake Erie 
already has dead zones. No one in this region and frankly, no 
one with any sense can look the other way.
    This resource is too important - and, this is our home. We 
have to muster the will and intelligence to help this system 
heal.
    We don't need another study. Legislative work I have done 
in funding the Western Lake Erie Basin Partnership for a decade 
and a half. This group has laid the research foundation for 
action. We have a major environmental crisis on our hands.
    The Toledo water drinking water advisory was an important 
warning that we overlook at our own peril.
    Let me take you on a journey across our Watershed, the 
largest in the entire Great Lakes. Put on your hip boots. We 
are about to scale a shallow canyon that tilts eastward. Toledo 
lies at the base of this oblong bowl on its extreme eastern 
edge.
    Simply put, the water drains toward us across a three state 
region. For example, when Findlay floods, Lake Erie eventually 
becomes the depository for the runoff as the Blanchard River 
runs North. If you picture the Watershed as a living, beating 
heart, the Maumee River is its major aorta. That aorta is fed 
by major veins and smaller capillaries that form ditches, 
streams, and rivers that drain into the Maumee inside this bowl 
tilted toward the Lake. Waterways drain downward from Michigan, 
- eastward from Ft. Wayne, Indiana - northward from a region 
south of Findlay - and upward and across toward the Lake near 
Sandusky.
    The watershed is a sponge of water, including artesian 
wells, underground rivers, and a spider-web of subsurface 
drainage tiles.
    That manmade, concentrated subsurface drainage system is 
the most concentrated system of tiling on our continent. When 
it rains anywhere across the watershed, this system acts like a 
superhighway - shooting the runoff into the Lake.
    Now remember rainfall in the Midwest has increased by well 
over a third in the past quarter century.
    The toxin that invaded Toledo's water system is the end 
product of a massive watershed runoff problem. Just fixing 
Toledo's water plant won't fix the watershed problem. We have 
to fix the tri-state feeder system that is clogging the 
arteries of our heart and threatening cardiac arrest in our 
Lake.
    Our tri-state watershed embraces 11,111 square miles - 
larger than the states of Maryland and Delaware combined or a 
land area a little larger than , of Ohio.
    When water moves inside this watershed, it sweeps up with 
it natural sediments and nutrients from the land, and all the 
by-products of human activity - sewage, stormwater runoff, 
industrial runoff and agricultural runoff, including animal 
waste and commercial fertilizer, a witch's brew of our own 
making.
    The water drains and courses down the Maumee River - the 
largest river that flows into the Great Lakes - and eventually 
delivers massive amounts of nutrients into the shallowest, 
warmest and most fragile of the Great Lakes. The Detroit River 
and Thames River in Ontario also charge nutrients into Lake 
Erie; but our watershed is the biggest contributor.
    Toxic algal bloom and other water contaminants have become 
a global health threat and an enormously expensive treatment 
challenge for cities throughout our country. Fixing this is a 
multi-billion dollar challenge; not just a few million.
    To succeed, the region will need a financing mechanism that 
embraces the entire watershed and meets its myriad of 
challenges, from thousands of leaking septic systems, to urban 
storm runoff, to 2 dozen combined sewer overflows, to animal 
manure spread on winter snows. And, as we found out in Toledo, 
the clock is ticking.
    Good science can save Lake Erie and our freshwater supply. 
That is why I have worked so hard to bring precious Federal 
dollars starting nearly three decades ago to launch the Lake 
Erie Research Center at the University of Toledo, in memory of 
Dr. Peter Fraleigh, a pioneer in lake science who predicted 
that this day would come. If you haven't visited this world-
class Center near Maumee Bay State Park, you should.
    We need to strengthen our lakefront science capabilities so 
that the Lake Erie Center, and Stone Lab at Gibraltar Island 
and the water labs at Heidelberg and the Erie County Health 
Department can refine the science of our Lake. We must continue 
our work with NASA, and the U.S. Geological Survey, the 
National Oceanic and Atmospheric Administration, and the 
Natural Resource Conservation Service of the United States 
Department of Agriculture. We need them all to help us, not 
just during this crisis, but to lay the basis for additional 
action.
    To effectively embrace the magnitude of what it will take 
to heal Lake Erie is precisely why I have worked hard to create 
a tri- state collaboration called the Western Lake Erie Basin 
Partnership. It was designed originally as a voluntary effort 
and a national model for watershed management in this 21st 
century - a century in which pundits observe freshwater will 
become more precious, even with wars fought over access to it.
    My initial goal was to legally protect our water supply and 
to prevent its diversion from this region. Our challenge now is 
to build forward a more action-oriented organization to achieve 
a solution to the ecosystem crisis at hand. Thank goodness the 
vision, the science, and the relationships already have been at 
work across the watershed.
    As the ranking Democrat on the House Energy and Water 
Subcommittee, I have proposed several legislative alternatives 
to expedite a solution to cleaning up the waters and, frankly 
the soils, to ensure public health and safety. The solutions 
that will work must rely on three pillars; science, citizen 
action, and an aggressive, accountable management structure.
    The first immediate step is to strengthen the science. 
USEPA should be mandated to provide advisory guidance for 
testing and treating microcystin in our drinking water. We need 
a standard and we need universal testing protocols for this 
contaminant.
    Second, our Lake Erie labs need the testing equipment and 
research capabilities to help us and all Lakefront communities 
to maintain a safe drinking water supply. Communities along 
Lake Erie should not be forced to waste 2 days in transporting 
samples to labs in southern Ohio or other states for certified 
results during a crisis. Lake Erie is here, and so should the 
labs be here.
    Third, we need to inspire a ``watershed mindset'' across 
our entire basin. This is an awesome task. To be successful, an 
active and engaged public across the watershed is essential.
    We have 1,313,420 acres to attend to. The storm sewer on 
the street can become a filter strip for nutrient runoff with 
proper rain-garden plantings. For farmers out in the country, 
their drainage ditches can become catchment ponds for nutrients 
that can be reapplied to fields. The vast amounts of animal 
manure produced across the watershed need more careful 
management and, frankly economic uses whose value exceeds the 
savings of field application.
    Let me just pick out a few numbers to illustrate the 
magnitude of the nutrients our watershed is asked to process 
each year. When it fails to do so, the residuals end up in our 
Lake and royally feed the algal blooms.
    There are two million people who live in our watershed; but 
over nine and a half million animals live here too. The amount 
of human fertilizer generated each year would fill 247 boxcars. 
But for animal manure, which totals over 12 billion pounds 
annually, it would take 42,713 box cars to haul it out. That's 
over 170 times more than humans.
    For commercial fertilizer, there are a total of over a 
billion pounds of nitrogen, phosphorus and potassium placed on 
the land, or 3,745 boxcars full. The question is how much do 
the plants absorb, and how much material works its way to Lake 
Erie.
    There is an old expression; ``you can't fool Mother 
Nature.'' And, I would add - we shouldn't try. We must find the 
truth and face it resolutely.
    Finally, I believe that our Watershed needs a more formal 
structure - like a federally authorized, tri-state coordinating 
and financing instrumentality to set goals and achieve them. 
This crisis is too significant to punt along. Years ago the 
Tennessee Valley Authority was created over an 8 state region 
to aid their development. More recently, the Everglades and the 
Chesapeake Bay created organizations to meet their particular 
environmental challenges. The Bureau of Reclamation has served 
17 western states in the desert west for 100 years. The Great 
Lakes has no such mechanism.
    Such a public-private partnership could aim to lift some of 
the management and infrastructure financing burden from 
communities trying to do the right thing.
    To succeed, we need science, we need one another, and we 
need an organization empowered and capable to meet the 
challenge.
    Let us be heartened in our quest by this Daniel Webster 
quote:``Let us develop the resources of our land, call forth 
its powers, build up its institutions and ask whether we in our 
time and generation may not perform something worthy to be 
remembered.''
    Lake Erie's future depends on our resolve.
                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
